          Office of Audits
          Office of Inspector General
          U.S. General Services Administration



          IMPLEMENTATION REVIEW OF CORRECTIVE ACTION PLAN
          Audit of Personal Property Donation Program:
          New Jersey State Agency for Surplus Property
          Federal Acquisition Service
          Northeast and Caribbean Region
          Report Number A110117/Q/2/P12005
          March 30, 2012
          Assignment Number A140025
          September 17, 2014




A140025
                 Office of Audits
                 Office of Inspector General
                 U.S. General Services Administration

DATE:            9/17/2014
TO:              Jeff Lau
                 Acting Regional Commissioner, Federal Acquisition Service (2Q)

FROM:            Victoria Nguyen
                 Audit Manager, Northeast and Caribbean Region Audit Office (JA-2)
SUBJECT:         Implementation Review of Corrective Action Plan
                 Audit of Personal Property Donation Program:
                 New Jersey State Agency for Surplus Property
                 Federal Acquisition Service
                 Northeast and Caribbean Region
                 Report Number A110117/Q/2/P12005
                 March 30, 2012
                 Assignment Number A140025

We have completed an implementation review of the management actions taken in
response to the recommendations contained in our audit report entitled Audit of
Personal Property Donation Program: New Jersey State Agency for Surplus Property,
Federal Acquisition Service - Northeast and Caribbean Region (See Appendix A). The
objective of our review was to determine whether the Personal Property Division has
taken the corrective actions as outlined in the Action Plan for the Audit of Personal
Property Donation Program: New Jersey State Agency for Surplus Property, Federal
Acquisition Service - Northeast and Caribbean Region. To accomplish our objective
we:

   1. Reviewed the original GSA Office of Inspector General’s report,
      recommendations, and approved action plan;
   2. Reviewed documentation submitted by the Northeast and Caribbean Region
      Federal Acquisition Service’s Personal Property Division to the GAO/IG Audit
      Response Division to resolve action plan items; and
   3. Obtained additional documentation and discussed the completion of the action
      plan with Personal Property Division management.

Our implementation review found that the Northeast and Caribbean Region Federal
Acquisition Service’s Personal Property Division addressed the audit recommendations
in the corrective action plan, dated April 27, 2012.




A140025                               1
If you have any questions regarding this report, please contact me or the audit team at
the following:

 Victoria Nguyen Audit Manager        victoria.nguyen@gsaig.gov    (212) 266-3360
 Michael Vaccarelli Auditor-In-Charge michael.vaccarelli@gsaig.gov (212) 266-3359

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this review.




A140025                                 2
Background

On March 30, 2012, we issued an audit report, Audit of Personal Property Donation
Program: New Jersey State Agency for Surplus Property, Federal Acquisition Service -
Northeast and Caribbean Region, to the Northeast and Caribbean Regional
Commissioner of the Federal Acquisition Service. The objectives of the audit were to
determine if donated property (1) only goes to eligible recipients and (2) is accounted for
and used by the New Jersey State Agency for Surplus Property’s (NJ SASP) donees in
accordance with prescribed criteria.

Our audit found:

   1. Poor recordkeeping, inadequate oversight, and missing identifiers precluded the
      positive identification of most of the donated property that was searched for.
   2. Ineffective and incomplete data submissions and entries have resulted in the
      inaccurate reporting of donation activity.
   3. State reviews were not performed and documented effectively.
   4. The NJ SASP does not maintain a current list of eligible donees for the GSA
      Donation Program.

To address the issues identified in the report, we recommended that the Regional
Commissioner of the Federal Acquisition Service:

   1. Enforce proper recordkeeping standards on the NJ SASP. Specifically, donee
      files should be complete and property receipts must comply with Federal
      Management Regulation standards. Also, encourage donees to retain the
      identifying information that comes affixed to each donated item.
   2. Reconcile the quarterly donation activity received from SASP’s to another data
      source (such as GSAXcess) and require supervisory review of the data entered
      into the GSA system.
   3. Review the NJ SASP in a more timely fashion, carefully document these reviews
      and disseminate the results to the SASP, and follow up on outstanding issues.
      Given the issues identified relative to the NJ SASP, we recommend that it be
      reviewed on a 2-year cycle.
   4. Require the NJ SASP to maintain a current list and properly promote the
      donation program.

The Regional Commissioner of the Federal Acquisition Service agreed with the report
recommendations.

Results

The results of our implementation review indicate that the Federal Acquisition Service’s
Personal Property Division in the Northeast and Caribbean Region has taken
appropriate corrective actions to address the recommendations. We determined that no
further action is necessary to address our recommendations.



A140025                                  3
Appendix A – Action Plan for Report Number A110117/Q/2/P12005




A140025                       A-1
Appendix A – Action Plan for Report Number A110117/Q/2/P12005 (cont.)




A140025                        A-2
Appendix A – Action Plan for Report Number A110117/Q/2/P12005 (cont.)




A140025                        A-3
A140025   A-4
Appendix B – Report Distribution
Regional Administrator, Northeast and Caribbean Region (2A)

Commissioner, Federal Acquisition Service (Q)

Acting Regional Commissioner, Federal Acquisition Service (2Q)

Regional Counsel (LD2)

Division Director, GAO/IG Audit Response Division (H1C)

Internal Audit Liaison, Northeast and Caribbean Region (2Q1)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A140025                                B-1
